<html>
<title> - CONTRACTS FOR AFGHAN NATIONAL POLICE TRAINING</title>
<body><pre>[Senate Hearing 111-944]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-944
 
             CONTRACTS FOR AFGHAN NATIONAL POLICE TRAINING

=======================================================================

                                HEARING

                               before the

              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 15, 2010

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
57-325                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee899e81ae8d9b9d9a868b829ec08d8183c0">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee


              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Missouri
CARL LEVIN, Michigan                 SCOTT P. BROWN, Massachusetts
THOMAS R. CARPER, Delaware           SUSAN M. COLLINS, Maine
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
JON TESTER, Montana                  JOHN McCAIN, Arizona
EDWARD E. KAUFMAN, Delaware          LINDSEY GRAHAM, South Carolina
                     Margaret Daum, Staff Director
                           Alan Kahn, Counsel
                Molly Wilkinson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Brown................................................     4
    Senator Kaufman..............................................     5
Prepared statement:
    Senator McCaskill............................................    41
    Senator Brown................................................    43

                               WITNESSES
                        Thursday, April 15, 2010

Hon. Gordon S. Heddell, Inspector General, U.S. Department of 
  Defense........................................................     7
Evelyn R. Klemstine, Assistant Inspector General For Audits, U.S. 
  Department of State............................................     8
Hon. David T. Johnson, Assistant Secretary, Bureau of 
  International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State............................................    10
David S. Sedney, Deputy Assistant Secretary of Defense for 
  Afghanistan, Pakistan, and Central Asia, Office of the 
  Assistant Secretary of Defense For Asian and Pacific Security 
  Affairs, U.S. Department of Defense............................    12

                     Alphabetical List of Witnesses

Heddell, Hon. Gordon S.:
    Testimony....................................................     7
    Prepared statement...........................................    48
Johnson, Hon. David T.:
    Testimony....................................................    10
    Prepared statement...........................................    67
Klemstine, Evelyn R.:
    Testimony....................................................     8
    Prepared statement...........................................    63
Sedney, David S.:
    Testimony....................................................    12
    Prepared statement...........................................    74

                                APPENDIX

Questions and responses submitted for the Record from:
    Mr. Heddell..................................................    78
    Ms. Klemstine................................................    83
    Mr. Johnson..................................................    86
    Mr. Sedney...................................................    94
Contractor Past Performance Evaluation submitted by Chairman 
  McCaskill......................................................   101
Audit information submitted by Chairman McCaskill................   104


             CONTRACTS FOR AFGHAN NATIONAL POLICE TRAINING

                              ----------                              


                        THURSDAY, APRIL 15, 2010

                                   U.S. Senate,    
          Ad Hoc Subcommittee on Contracting Oversight,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill, Kaufman, Brown, and Coburn.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. This Subcommittee on Contracting 
Oversight will come to order today.
    First, I obviously want to greet the new Ranking Member of 
the Subcommittee. Senator Scott Brown from the State of 
Massachusetts has joined this Subcommittee as its Ranking 
Member. I do not know what this says about the Subcommittee or 
me, but I have now gone through three ranking members in less 
than a year. I hope you hold up better than the last two.
    Senator Brown. I will stay as long as you have me, Madam 
Chairman. Thank you.
    Senator McCaskill. No. I had a great working relationship 
with both Senator Collins, who was temporarily filling the role 
as things were getting sorted out and elections that really had 
not quite been decided yet, and then Senator Bennett did a 
great job for a period of time.
    But we have had a chance to visit, and I think we will work 
together well, and I look forward to it, so welcome to the 
Subcommittee.
    Senator Brown. Thank you, Madam Chairman.
    Senator McCaskill. Why are we here? Well, typically I try 
to start with self-effacing humor about how dry contracts are 
and how typically no one cares about this subject matter longer 
than the brief moment of outrage when they read a brief quote 
in a paper somewhere about some trouble that has happened in 
contracting. Honestly this is a little different.
    We are now much more educated as a Nation about fighting 
counterinsurgency. We have learned hard lessons about fighting 
counterinsurgency. Lives have been lost. Families across this 
great Nation grieve as I speak for members of their families 
that have been killed fighting counterinsurgencies.
    One thing we have learned is that it has become crystal 
clear that to successfully fight counterinsurgencies you have 
to be strategic and effective at making sure there is local 
rule of law. Why is that important? Well, that is important 
because counterinsurgency thrives on being able to substitute 
their rule of law for that of a legitimate government.
    The Taliban has done so well in Afghanistan because they 
were providing police protection to impoverished communities 
many times through fear, many times through retribution. But 
the Taliban, it was a sheriff. And when the Taliban was not the 
sheriff there was rampant corruption and even when the Taliban 
was the sheriff there was rampant corruption.
    We learned all of these lessons in Iraq as we tried to move 
into the country to get rid of a despot, a bad guy, that was 
destabilizing the region; and we learned the hard way that if 
we did not focus on establishing a rule of law, on not just 
going after the bad guys but leaving a military and a police 
presence that could stabilize the way of life that most people 
on this planet want. They want to be able to take their kids to 
school, feed their families, and not worry that they are going 
to be killed on the way to work.
    So that is why this hearing is so important. Training the 
police in Afghanistan is part of our military mission. It is as 
important as anything else that we are doing in that Nation 
right now. It is as important as training the military. It is 
as important as hunting down the terrorists and killing them.
    So what happened in that regard? And it is an unbelievably 
incompetent story of contracting. For 8 years we have been 
supposedly training the police in Afghanistan. Here is what we 
have done. We have flushed $6 billion. $6 billion.
    Now, am I exaggerating? Let me quote the general in charge 
of training the police in Afghanistan. This is what General 
Caldwell said, ``It is inconceivable but in fact for 8 years we 
were not training the police.'' He went on to say that 
essentially we were giving them uniforms.
    No one had control of these contracts. No one agency. This 
has been a game of pass off. The ultimate recipe for disaster 
is not having one single agency with a clear line of authority 
in charge able to make sure the mission is accomplished with 
efficiency, effectiveness, and that money is not walking away. 
None of that happened for 8 years.
    I will give you one anecdote. Early this year the Italians 
showed up. This has been an international, very unorganized but 
nonetheless an international effort. The Italians showed up. 
And the Afghan volunteers that had volunteered to be on these 
police departments were posting horrible scores on the shooting 
range. They were the gang that could not shoot straight. And 
there was this wringing of hands, what are we going to do about 
these Afghan police officers that we are training that cannot 
hit the side of a barn.
    The first part of this year the Italian paramilitary came 
in and began looking at the problem. Are you ready for what the 
problem was? Nobody had checked the sites of the AK-47s and the 
M-16s they were shooting. They were out of line.
    So we were paying somebody to teach these people how to 
shoot these weapons and nobody that we were paying had bothered 
to check the sites as to whether or not they were in line. So 
these guys were using the sites that were not even in line with 
where they were shooting.
    That is one example but I think it is pretty illustrative. 
These contractors, for whatever reason, did not have anybody 
who was saying, have you checked the sites when the scores were 
coming back bad year after year after year. Their scores have 
dramatically improved.
    Do not get me wrong. There are major challenges here. These 
people are showing up to become police officers without being 
able to read or write. Most of them have only seen a role model 
of a police officer that is not the role model we are looking 
for. We are asking them to change many things about their 
culture and the way they operate. This is a hard job. And do 
not get me wrong. I get it. It is a hard job, all the more 
reason that we need a line of accountability.
    We have an audit that is going to be the subject of the 
hearing to a large extent today. I want to make sure, as we 
talk about this, that we know that there are in fact reasons 
why people should be angry today. This new joint Inspectors 
General (IG) report that just came out in February, and we are 
going to talk about it extensively during the hearing, talks 
about the problem of this division of responsibility between 
the Defense Department and the State Department and how badly 
this has gone in terms of accountability and authority.
    Now, if this frankly was the first time that we had heard 
this, then maybe we should not have a full-blown hearing. We 
have identified the problem. Now you can get to work. Here is 
the rest of the story:

    <bullet> L2005--Government Accountability Office (GAO) 
reported that Department of State had not developed a plan for 
when, how, or what costs the training or equipping of the ANP 
would be accomplished.
    <bullet> L2006--the Department of State (DOS) and Defense 
Inspectors General found management of the DynCorp contract to 
be problematic and required more effective coordination between 
the Department of State and CSTC-A, and I start talking in 
acronyms. That means I have been here too long. That is 
essentially the division of the military that is in charge of 
overseeing these contracts.
    <bullet> L2008--GAO found State and Defense still had not 
developed a coordinated, detailed plan for completing and 
sustaining the ANP force, and the Department of Defense (DOD) 
IG reported that CSTC-A, the military department in charge, had 
not developed training programs.

    How about contracting officers? In the Department of State, 
we found in this 2010 report that contracting officers were not 
providing adequate surveillance. Guess what? In 2005, they said 
that, and in 2006, they said that. SIGAR who frankly has not 
completed enough reports that are meaningful in terms of the 
oversight capacity of our government, they even found in 2009 
there was a problem.
    Curriculum. The current report says there is a problem with 
curriculum. Guess what? In 2006, they said the same thing. In 
2006, the State Department and the DOD IG reported obstacles to 
establishing a fully professional Afghan National Police 
including literate recruits, a history of low pay, pervasive 
corruption, on and on and on.
    In other words this is the third or fourth time that people 
who check into our government has said hello, it is not 
working. You are not doing a good job.
    This does not compute. Essential to our mission, men and 
women dying for the cause, and we cannot get basic contract 
oversight of this function under control.
    So this is going to be a tough one and there are going to 
be some tough questions because there is no excuse for this to 
go any further. There is no excuse.
    I welcome all of your testimony. I apologize for the delay 
in the hearing. We got caught up in--I will not go into it 
because I do not want this to be a partisan exercise. 
Unfortunately we got caught up in some stuff that we could not 
have the hearing the last time. And, Ms. Klemstine, that is why 
you are here today. One up the food chain was going to be here 
the last time but was unable to come today. So thank you for 
being here today. I welcome all of you. At this point I would 
like to turn the hearing over for an opening statement to 
Senator Brown.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Madam Chairman. I want to thank 
you for your nice welcome and the conversations we have had to 
lead up to this hearing. And I thought what you said was well 
said and I am not going to duplicate a lot of it but I will say 
as somebody who has been serving in the military for 30 years, 
presently holds the rank of a lieutenant colonel, and is 
familiar with contracting, being the head attorney for defense 
services in Massachusetts, these are things that I take very 
seriously.
    And having recently come back from Afghanistan and seeing 
the nature of the challenge and the enormity of the challenge 
and the fact that I am just flabbergasted as a new member, but 
as an ordinary citizen prior to this as to the amount of money 
we are spending over there and seeing the clear lack of 
progress.
    What does that mean? To me it means obviously dollars that 
cannot be spent here in the United States for services and 
other things that we come to know and expect.
    It also more importantly comes down to lives. As the 
Chairman said about having our men and women going to a foreign 
country, fighting to protect the rights of a citizenry that 
sometimes appreciates us, sometimes does not, but with a police 
force that would be fully stood up and raring to go would take 
the pressure off of us to not only be a clearing force but now 
be a security force.
    One of the things that I noted, as big as the problem is, 
when we first got into that country, Madam Chairman, the 
enormity of the problem is so big, it almost quite frankly 
feels like when I first got here I looked at the problems, the 
offices, the logistics, the hiring, it is just so big. By the 
time we left I actually had a real understanding of the plan 
that General McChrystal was trying to implement when it comes 
to winning the minds and hearts of the Afghan citizens and also 
trying to implement a plan with the army and the police force 
to take the pressure off of our soldiers, our MPs in 
particular, for going in and securing an area.
    Then when I read the Newsweek article and then when I have 
done my own due diligence and the research and read the reports 
I am like I do not get it. We are not talking about a couple of 
hundred million dollars. We are talking about $6 billion.
    When I saw the police force, with all due respect, I mean I 
know we have young cadet corps that are more squared away. I 
know we are in a new chapter here. I know I am new here, Madam 
Chairman, but we have to have someone stop, take 
responsibility, have communication lines develop between the 
entities and the agencies and just solve the problem because I 
am not sure everyone here testifying and people listening know 
that we are in a financial mess, and it is not getting any 
better.
    And for us to ask the American taxpayers and the taxpayers 
in my State to continue to contribute to an effort where there 
are wasted dollars, they do not buy it. I am somebody who 
believes in the value of a dollar. I want to know when my money 
goes somewhere that it is going to be spent properly. It is 
going to be fully accountable and that we are going to get a 
good value for our dollar.
    Madam Chairman, based on your earlier statements, as I 
said, I am not going to repeat. I am very interested in getting 
to the bottom of who is responsible--identifying that and say, 
great, who is going to be responsible now? How are we going to 
solve this problem? How are we going to make sure that the tax 
dollars that we send overseas are going to be used effectively 
so we can bring our men and women home quicker? And we can 
stand up that force so they can protect themselves and allow 
their produce and their natural resources to be harvested so 
they can become self-sufficient and we get back to doing the 
people's business here in the United States.
    So, Madam Chairman, I will turn it back to you. I thank you 
for your welcoming remarks and I look forward to participating.
    Senator McCaskill. Thank you.
    Senator Coburn, it is great to see you. Would you like to 
wait for questions?
    Senator Coburn. Yes.
    Senator McCaskill. Thank you.
    Let me introduce the witnesses. First, Gordon Heddell has 
served as Inspector General for the Department of Defense since 
July--I am sorry. I did not see you, Senator Kaufman. You are 
so far away. We need to get you closer.
    Thank you, Senator Kaufman, for being here. Would you like 
to make a statement before we begin?

              OPENING STATEMENT OF SENATOR KAUFMAN

    Senator Kaufman. Thank you, Madam Chairman.
    I just want to say how much I support what both of you have 
said. This is so incredibly important. The No. 1 priority is 
our troops in harm's way in Afghanistan and one of the really 
very top problems we have regardless of the waste which, as 
Senator Brown pointed out, is unacceptable under any 
circumstances. This is key.
    Getting the police squared away is one of the really key 
things we need so, as Senator Brown said, we can come home and 
leave them to do their own security. There is nothing we are 
working on here--that is the reason I am here today--there is 
nothing we are working on that is more important than this 
right here.
    How can we hold? We got to shape, we got to clear, we have 
to hold so that we can build, and the police are an important 
part of that. Right now, with the police, we are getting it 
squared away. It is not just a waste of money. They have been a 
negative. You talk about the rule of law. The rule of law in 
most of these areas is because the police are so corrupt. The 
people they are supposed to go to, to get the rule of law, are 
the things they are trying to stay away from.
    So I cannot think of a more important hearing going on on 
the Hill today than this one right here.
    Senator McCaskill. Thank you, Senator Kaufman.
    Gordon Heddell has served as the Inspector General for the 
Department of Defense since July 2009. He served as Acting 
Inspector from 2008 to 2009. Prior to joining the Department of 
Defense in the Inspector General's office, Mr. Heddell served 
as the Inspector General at the Department of Labor.
    Evelyn Klemstine is the Assistant Inspector General for 
Audits for the State Department. Ms. Klemstine previously 
served as the Assistant Inspector General for Audits at NASA 
and as the Program Director for the International Programs 
Division at the Defense Department, Office of Inspector 
General.
    David Johnson has served as the Assistant Secretary for the 
Bureau of International Narcotics and Law Enforcement Affairs 
at the State Department since October 2007. In addition to 
numerous other distinguished posts with the Federal Government, 
Mr. Johnson served as Afghan coordinator for the United States 
from May 2002 to July 2003.
    David Samuel Sedney is Deputy Assistant Secretary of 
Defense for Afghanistan, Pakistan, and Central Asia in the 
Office of the Assistant Secretary of Defense for Asia and 
Pacific Security Affairs. Previously Mr. Sedney served as 
Deputy Chief of Mission, Charge de Affairs and Deputy Chief of 
Mission at the U.S. Embassy in Kabul, Afghanistan.
    It is the custom of the Subcommittee to swear in all 
witnesses that appear before us. So if you do not mind, I would 
ask you to stand.
    Do you swear that the testimony that you will give before 
this Subcommittee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Let the record reflect that the witnesses answered in the 
affirmative.
    Thank you all very much.
    We will be using a timing system today. We would ask that 
your oral testimony be no more than 5 minutes. Your written 
testimony will be printed in the record in its entirety.
    Mr. Heddell, we would ask you to begin.

TESTIMONY OF THE HON. GORDON S. HEDDELL,\1\ INSPECTOR GENERAL, 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Heddell. Chairman McCaskill, Ranking Member Brown, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to discuss the joint audit that was performed by 
the Inspectors General of the Departments of Defense and State.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Heddell appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    This audit examined the Administration and contract 
oversight of the State Department program to provide training 
to the Afghan National Police. This audit was conducted at the 
request of the Senate Committee on Appropriations, Subcommittee 
on Defense.
    As you know, the training and development of the Afghan 
National Police to provide security in countering the 
insurgency in Afghanistan is a key element of the U.S. 
strategy. As such, it is critical that the Afghan police be 
trained to support the counterinsurgency mission along with 
community policing skills. Effective contract oversight is 
crucial to achieving these goals.
    Prior inspection and assessment reports by this office, as 
you noted, the Chairman, have noted that adequate staffing of 
key contracting positions is absolutely essential for immediate 
and effective oversight. It has become very apparent that the 
insurgents in Afghanistan are increasingly targeting the Afghan 
police and that average annual death rates among these police 
officers have been steadily increasing.
    As a result, contract requirements regarding training need 
to be modified to address this growing insurgency. This 
requires close interaction between the contractor and what is 
now known as NATO Training Mission/Combined Security Transition 
Command Afghanistan.
    The current contract arrangement simply does not facilitate 
this close interaction because the Department of Defense is 
required first to coordinate all contract changes with the 
Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs, at times a very cumbersome process.
    Furthermore, in August 2009, the Chief of Mission in 
Afghanistan reported that the lack of a single unified chain of 
command sometimes created confusion and delays in enhancing the 
police training program. Accordingly, the Chief of Mission and 
the commander of the International Security Assistance Forces 
recommended the transfer of contractual authority to the 
Department of Defense for the training of the Afghan police.
    To bring about the recommended transfer of responsibility, 
the Department of State planned to allow its current police 
training task order to expire and the Department of Defense 
planned to add police training to an existing contract.
    However, a March 15 decision by the Government 
Accountability Office sustained a DynCorp protest of the 
planned action. In light of this decision, the State Department 
plans to make adjustments to improve the existing police 
training program, to include more direct involvement by the 
military in training the Afghan police and moving the 
contracting authority from Washington, DC to Kabul.
    Furthermore, inadequacies in the Administration and 
oversight of the contract compound the challenges that exist in 
providing the required training to the Afghan police. These 
challenges include weaknesses in quality assurance, review of 
their invoices, support for the billing and making of payments, 
defense contract audit agency involvement or lack of 
involvement, maintenance of contract files and accountability 
of government property. My written statement provides 
additional information on these deficiencies.
    Our audit also questions the fact that the State Department 
still holds about $80 million in expired Department of Defense 
funds and that this needs to be resolved. The deficiencies 
identified in the Administration and oversight of the contract 
illustrate the larger challenges that are caused by the lack of 
sufficient contract personnel, geographic distance and the 
wartime environment all complicating this important matter.
    My office will closely follow the efforts of the Department 
of Defense to oversee the future contract to train the Afghan 
police and to appropriately use the funds provided by Congress 
for that purpose.
    I look forward to continuing our strong working 
relationship with this Subcommittee and with all oversight 
organizations engaged in the important work that is being 
carried out in Afghanistan and in Southwest Asia generally.
    And this concludes my statement.
    Senator McCaskill. Ms. Klemstine.

   TESTIMONY OF EVELYN R. KLEMSTINE,\1\ ASSISTANT INSPECTOR 
          GENERAL FOR AUDITS, U.S. DEPARTMENT OF STATE

    Ms. Klemstine. Thank you, Chairman McCaskill and Ranking 
Member Brown, for the opportunity to present our joint audit on 
the national police training program contract in Afghanistan 
with the Department of Defense Inspector General.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Klemstine appears in the Appendix 
on page 63.
---------------------------------------------------------------------------
    Deputy Inspector General Geisel sends his regards but he is 
in Baghdad this week.
    We conducted this joint audit in response to a 
congressional request with an objective determining the ability 
of the Afghan National Police (ANP), training program to 
address Afghan security needs. We also reviewed contract 
management activities and the status of Afghan Security Forces 
(ASF), funds provided by DOD to the State Department.
    In 2006, when the security environment in Afghanistan was 
more stable, DOD decided to use the State Department's existing 
Civilian Police program (CIVPOL), contract to implement the ANP 
training program. The contractor, DynCorp International, was 
awarded two task orders valued in excess of $1 billion.
    These two task orders directed DynCorp to provide 
personnel, life support, and communications for the training 
program. The State Department was responsible for procuring 
services, overseeing the contract, and managing and reporting 
on funds transferred from DOD.
    We found under the CIVPOL contract DOD did not have the 
authority to direct the contractor thereby restricting DOD's 
ability to rapidly modify ANP training to respond to the rising 
insurgency and the changing security situation in Afghanistan.
    While the State Department was focused on training the ANP 
to be an effective police force after security in Afghanistan 
had been stabilized, DOD was focused on the survival and 
tactical training of the ANP to counter the growing insurgency.
    In addition, while the foundation has been laid for an 
effective women's police training program, there has been 
inadequate progress in training a sufficient number of Afghan 
women. The lack of trained women's police corps members has 
limited the effectiveness of law enforcement in Afghanistan.
    We recommended correcting these deficiencies by clearly 
defining ANP training program requirements, increasing the 
training facility capacity for women police members and 
enhancing efforts to recruit women training instructors.
    In response to the draft report, management provided a 
detailed description of the requirements for the training 
program and agreed to provide additional resources for training 
policewomen.
    In overseeing CIVPOL contract, we found the State 
Department contracting officials did not assign sufficient 
numbers of contract oversight personnel to the ANP task orders 
and did not prepare a quality assurance surveillance plan to 
ensure that the contractor met the performance requirements of 
the statement of work.
    In addition, those contracting personnel who were assigned 
to monitor the task orders did not provide adequate oversight 
to ensure that all goods and services were received.
    Specifically the following internal control weaknesses were 
identified. One, government furnished property was not 
adequately accounted for. Two, contract files were incomplete 
and not always available. Three, deliverables were not always 
matched to receiving reports, and four, procedures for 
reviewing contractor invoices to determine whether costs were 
proper were not followed.
    As a result of these internal control weaknesses, State 
Department personnel could not ensure that funds allocated by 
DOD for the program were expended in accordance with DOD 
requirements.
    We recommended that the number of contract personnel 
responsible for contract oversight be increased, that a 
complete inventory of government property be performed, that 
the contract officers maintain complete and accessible contract 
files, and that goods and services be matched against invoices.
    In addition, we recommended that the Defense Contract Audit 
Agency (DCAA), perform an audit to determine whether all 
expenditures were allowable, allocable, and reasonable, and 
request reimbursement from DynCorp for any payments DCAA 
determines to be improper.
    In response to the draft report, management generally 
agreed to increase the number of oversight personnel going 
forward and strengthen internal controls and undertake an 
audit.
    In addition to identifying various internal control 
weaknesses, we also requested contract invoices and other 
supporting documents for $217 million in ASF funds already 
expended.
    Unfortunately, the State Department financial managers did 
not provide detailed transaction data until after the draft 
report was issued. As a result, we could not determine whether 
the Department had expended the funds in accordance with 
congressional intent.
    However, we did ascertain that $80 million in funds 
transferred from DOD remained unexpended well after the end of 
the availability period established by appropriations law. We 
recommended that the State Department determine the status of 
ASF funds and that any excess funds, to include the $80 million 
in expired funds, be returned.
    In March 2009, the President announced a comprehensive new 
strategy for Afghanistan which included an emphasis on training 
and increasing the size of Afghan security forces.
    The State Department and DOD are committed to providing a 
stable and secure environment for all Afghan citizens. This 
requires that we effectively train and mentor Afghan forces, 
monitor our contracts effectively, and ensure that taxpayers' 
money is spent appropriately.
    Finally I would like to note that this audit was conducted 
in 6 months. Given the scope of work which took place in the 
United States and six locations in Afghanistan, the short time 
for the successful completion is a tribute to the 
professionalism of the audit co-directors Mark Ives from DOD IG 
and Jim Pollard from the State Department OIG and their teams.
    Once again I thank you, Chairman McCaskill and Senator 
Brown, for the opportunity to appear today and I am ready to 
answer your questions.
    Senator McCaskill. Thank you very much and thank you to the 
staffs. That is quite an accomplishment, 6 months for this 
audit. I know a little bit about that. That is amazing. 
Congratulations to your teams.
    Mr. Johnson.

TESTIMONY OF THE HON. DAVID T. JOHNSON,\1\ ASSISTANT SECRETARY, 
BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Mr. Johnson. Thank you, Chairman McCaskill, Ranking Member 
Brown, and Senator Kaufman. We appreciate the opportunity to 
appear before the Senate Subcommittee today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 67.
---------------------------------------------------------------------------
    The topic of today's hearing, Contracts for Afghan National 
Police Training, is both urgent and it is important. As we all 
know, President Obama aims our military to begin transitioning 
out of Afghanistan in the summer of 2011. That is premised on 
the expectation that Afghan security forces can provide 
security for the Afghan people to support their self-
governance.
    Since 2003, the State Department has provided a variety of 
training and assistance to the Afghan National Police. Since 
2005, our training programs have supported the United States 
military in its responsibility to develop the overarching 
Afghan national security forces which includes both the army 
and civilian police.
    As you know, Madam Chairman, from your Subcommittee's 
oversight record, building civilian capacity in a conflict zone 
like Afghanistan where civil institutions had been largely 
destroyed over 20 years of conflict is incredibly challenging.
    The State Department's Bureau of International Narcotics 
and Law Enforcement Affairs (INL) undertake these assignments 
to advance our broader national security and foreign policy 
objectives. Our expertise in law enforcement and criminal 
justice programs is widely recognized.
    Building on the recommendations for improvement from the 
oversight community and from this Subcommittee, we hope soon 
also to be recognized for our agility and proficiency in 
contract management and oversight.
    Where our OIG colleagues have identified that we have 
fallen short is in how we have adapted our contract oversight 
to challenges of operating in theaters of war where military 
operations and complex security requirements limit our on-the-
ground staffing and our staff's ability to travel to the sites 
where training takes place.
    As stewards of increasingly more taxpayer dollars for 
critical national security and foreign policy objectives, we 
must effectively adapt to this battlefield environment so that 
we craft procedures and methods that allow our contract 
management and oversight activities to be fully carried out.
    The report discussed here today identifies a number of 
recommendations with which we fully agree and are working to 
address. For example, INL's current oversight team has already 
been enhanced. Our team now consists of 33 staff, 12 program 
officers in Afghanistan and Washington, seven in-country 
contracting officers' representatives (ICORs) now provide 
oversight in Afghanistan while the contracting officer's 
representative and 13 of his staff address contract oversight 
and Administration in Washington.
    The increased ICOR staffing enables us to strengthen our 
asset management and inventory reviews processes. More ICORs 
are in various stages of the hiring process and will be in 
Afghanistan beginning in May. By September we will have 22.
    We will implement fully standardized contract management 
operating procedures and guidelines by June 30 of this year. 
Standing operating procedures and a Web-based contracting 
officers representative file fully accessible to staff 
worldwide around the clock will be in place by the end of May. 
Along with more frequent reviews, this will further strengthen 
our internal controls.
    We have engaged DCAA to audit our Afghanistan task order 
with two audits in process and they are preparing to audit the 
task orders that are the subject of the OIG report. To date, 
INL has rejected 17 percent of police training invoices for 
Afghanistan resulting in 16.3 million in the denied claims.
    Many of INL's police training accomplishments are not 
easily represented in a chart. Capacity building is a long-term 
process even in stable post-conflict areas but Afghanistan 
which continues to face an active insurgency is a special case.
    For example, our police training programs are designed to 
empower Afghan civilians, many of whom lack basic literacy with 
the core skills needed to mobilize as police officers and 
respond to the direction of their local commanders.
    Embedded in a Washington Post story on February 27, was an 
Afghan police training success story. While the news sadly 
communicated the grim tale of yet another suicide bombing 
attack, the report indicated that after multiple bomb 
detonations police officers assembled at the scene rather than 
retreating and remained until they had covered their fallen 
colleagues, a scenario which would likely have been different 
only 2 years ago.
    This is one instance but it is descriptive not only of the 
challenging environment in which Afghan National Police operate 
but of the kinds of actions and operations their training has 
made them capable of undertaking.
    Madam Chairman, the Department takes very seriously the 
need to safeguard the public's trust in managing programs and 
contracts that support our national security objectives around 
the world. It is after all through these programs that our 
partners worldwide develop the bedrock of civil society, a 
safe, secure place where people can live free from fear.
    Thank you for the opportunity to discuss INL's contract 
oversight. I will do my best to address your questions.
    Senator McCaskill. Thank you, Mr. Johnson.
    Mr. Sedney.

TESTIMONY OF DAVID S. SEDNEY,\1\ DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR AFGHANISTAN, PAKISTAN, AND CENTRAL ASIA, OFFICE OF 
   THE ASSISTANT SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC 
          SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Mr. Sedney. Thank you very much, Chairman McCaskill, 
Senator Brown, and Senator Kaufman. Thank you for the 
opportunity to appear today with my interagency colleagues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sedney appears in the Appendix on 
page 74.
---------------------------------------------------------------------------
    As you know, the President's strategic review of 
Afghanistan and Pakistan recommend that heightened efforts to 
increase the quantity and quality of Afghan national security 
forces as part of a strategy to enable the eventual transfer of 
responsibility for security to the Afghan government. This is 
not an exit strategy. It is a transfer strategy.
    Improving the capacity of the Afghan National Police is 
particularly important as police are the primary link to the 
Afghan government for many Afghans particularly in rural areas.
    Moreover, the Afghan police are on the front lines of the 
fight against the Taliban and its affiliates. The Afghan 
National Police are situated in areas where no coalition or 
Afghan national army forces are and are often the target of 
much greater attacks. Casualty rates are higher in the Afghan 
National Police than in the army. It is two to three times more 
dangerous to be a policeman today in Afghanistan than to be a 
soldier in the Afghan national army.
    The effort to train the Afghan National Police as you 
pointed out, Chairman McCaskill, has been under resourced, 
under prioritized, and under carried out. One of the priorities 
of this Administration when it came in was to refocus our 
efforts with the renewed leadership, with greater resources, 
but more importantly than the number of resources, more 
targeted and more effective resources aiming at building the 
quality of the entire Afghan national security forces in an 
integrated effort with the Afghan national army and in a 
combined civil/military campaign plan that will enable us to 
carry out the transition that I described.
    As part of this revision, we, along with our NATO 
colleagues, have transitioned to the NATO training mission 
Afghanistan which General Caldwell, who you mentioned in your 
opening statement, is now the commander of, of course dual-
hatted also as the commander of CSTC-A. The NATO International 
Security Assistance Force (ISAF) and our non-NATO partners have 
made progress towards growing the end strength and quality of 
ANP.
    In December 2009, the ANP achieved its end strength goal of 
96,800. In January 2010, the Joint Coordination Monitoring 
Board, the international board charged with ensuring the 
international and Afghan ministerial plans aligned with the 
goals of the Afghan government agreed with the Afghan 
government's plan supported by ISAF and the U.S. Government 
increased the size of the ANP to 109,000 by October 31, 2010, 
and to 234,000 by October 31, 2011.
    The increase in 2010 will consist of approximately 5,000 
Afghan border police, 5,000 Afghan national civil order police 
which is the mobile gendarme force that is equipped to act as a 
light infantry role throughout the country, and 2,000 Afghan 
uniformed police as well as other specialized police and 
enablers.
    At the end of March 2009, the Afghan Ministry of Interior 
reported that the total ANP will be equal to 102,138, slightly 
above the February goal of 99,261.
    However, increases in the size of ANP forces must come with 
a commitment for improvement in the quality of the force. 
Initiatives to improve the quality of the force include 
improvements in the training infrastructure, increased pay 
equal to that of the Afghan national army, better equipment, 
expanded literacy training, and embedded partnering and 
mentoring.
    In addition, we are working hand in glove with the 
Department of State to build rule of law structures and 
processes to support that ANP. As part of our effort to improve 
the police training process, the ambassador and the commander 
of U.S. Forces in Afghanistan, as my colleagues earlier 
mentioned, recommended in an August 2009 cable that management 
of the Defense-funded, State-managed police training contract 
should be shifted from the Department of State to the 
Department of Defense. The Department of State and the 
Department of Defense subsequently approved this 
recommendation.
    Due to the operational need to quickly award a new contract 
and the respective organizations subject matter expertise and 
experience utilizing the respected subject organizations 
expertise and experience in support of Afghanistan operations, 
the commander of CSTC-A selected the counter narcoterrorism and 
technology program office through the U.S. Army space and 
missile defense command of the Army strategic forces command to 
oversee the development of an appropriate acquisition strategy 
for the ANP program.
    The strategy called for procuring the required services 
through the issuance of a task order under existing multiple 
award indefinite delivery, indefinite quality contracts with 
CNTPO. The task orders for the training of ANP and ANP programs 
logistics requirements were to be competed among five holders 
of an existing MAIDIQ contract.
    However, before orders could be issued, on March 15, the 
Government Accountability Office, as the Inspector General 
earlier mentioned, sustained the protest by DynCorp 
International. The GAO determined that the task orders for the 
ANP program were outside the scope of the MAIDIQ contracts.
    As a result, the ANP training effort will not be awarded 
under that contract. DynCorp will continue performance under 
the current State Department contract which has been extended 
to July of this year while the Department of Defense in 
conjunction with the Department of State weighs options to 
ensure the ANP program requirements are met in an expeditious 
manner in consideration of this development and in compliance 
with the GAO recommendations.
    It is important that any contractor DOD selects be 
responsible and perform within the strict rules, regulations, 
performance expectations, and acceptable ethical and business 
practices that we demand.
    Please be assured that we take seriously any allegation 
that a contractor fails to meet these expectations and 
requirements. The selection of DOD contractors responsible and 
capable to meet our requirements to assist in training and 
development of the Afghan National Police is no exception.
    I hope you find this information helpful. Thank you and I 
look forward to your questions.
    Senator McCaskill. Thank you very much.
    Just to make sure I am respectful of my colleagues, if 
staff would run the clock for 7 minutes for each member. We 
will take as many turns as we need to get all the questions 
out. I have a tendency to go on and I want to make sure I do 
not go on too long without being respectful of Senator Kaufman 
and Senator Brown's time.
    So let me start with you, Mr. Sedney. What really happened 
here is the commanders over there decided that when they were 
telling DynCorp they needed this, DynCorp was telling their 
folks, well, be careful just because the military is telling 
you to do it does not mean we are going to get paid for it 
because the State Department is making those calls.
    So somebody finally figured out that it would be a good 
idea to have the people in charge of military mission be in 
charge of the contracting over an essential leg of a three-
legged stool as it relates to that mission in Afghanistan.
    Is that a fair characterization?
    Mr. Sedney. Yes, along with the Inspector General's report, 
the lack of unity of command in the police training effort. 
Clearly it was inhibiting what we were trying to do and I would 
repeat what was said earlier. The shift in environment where 
the security situation was getting worse and the police were 
being called upon to do more and different things than 
envisioned originally when the decision was made to utilize the 
State Department contract made clear that we needed that 
flexibility and that ability to have that unity of command.
    There were multiple examples from the small to the large of 
where that lack of unity of command was inhibiting what we were 
able to do, and that is why our new commander and our new 
ambassador out there made this decision to recommend what I 
mentioned before in that cable that they sent on August 11.
    Senator McCaskill. I certainly spent a lot of time when I 
was in Afghanistan with the ambassador and with General 
McChrystal and with General Caldwell. I completely agree that 
was the right thing to do but it is important to note that 
happened in August 2009, and we have no contract and we are not 
even close to having a contract.
    So I need to know today what is the plan? How are we going 
to get contractors committed and over there with jurisdiction 
and the supervision of the Department of Defense and the 
military to train Afghan police officers?
    Mr. Sedney. We do not have a final answer for you on that, 
Chairman McCaskill.
    Senator McCaskill. That is unacceptable.
    Mr. Sedney. However, I can tell you what we have done in 
the months since the GAO decision and where we are working to 
go to.
    Senator McCaskill. Let me make sure the record is clear 
here. The complaint was filed in December. This is a really 
important part of the mission. There is a chance anybody who 
knows anything about these contracts and anything about 
complaints, and believe me if anybody knows about this it is 
the Pentagon, about challenges to contracting, they know that 
GAO has an important role to play.
    At the moment that the complaint was filed, all hands on 
deck should have been looking at this at the Pentagon to say 
what is plan ``B''. If this objection is upheld by the GAO, 
what is plan ``B''?
    The President had already announced that this strategy was 
just until July 2011. The clock is ticking. So we know in 
December of last year that there could be a problem with 
transitioning this contract under the military control and you 
are telling me today, what, December, January, February, March, 
April, you are telling me 5 months later you do not know what 
you are going to do.
    Mr. Sedney. No, Chairman McCaskill, I am not telling you 
that we do not know what we are going to do. I am saying we 
have not decided the final form of what we are going to do. But 
as I said, if I could lay out where we are, what we are moving 
towards.
    Senator McCaskill. OK. What I want to hear is a decision 
has been made and we are going to get on it. That is what I 
want to hear but I am open to listening to what you want to 
say.
    Mr. Sedney. You are correct that once the contract protest 
was filed, we should have been and we were aware that we needed 
to start making alternate plans. Those alternate plans had to 
of course cover a wide range of possibilities of the 
contracting, and as I understand it, I am not a contract 
lawyer, but as I understand it, I was advised that there are 
some things that we had to be careful to do that in terms of 
preparation could not go beyond actions that could then lead to 
further protests so we have to be careful what we did legally.
    On March 9, 2010, we received a joint message from our 
military and civilians in the field, and this was a result of 
work that we had leading up to that, pointing out some of the 
areas that we need to work on, and what were some of the 
alternate ways forward.
    Since the GAO decision, my department, myself, Assistant 
Secretary Johnson, his department, have met. The current 
DynCorp contract is an extension of a contract which had 
expired and that extension runs until July of this year.
    We determined we had several possible ways forward at the 
current time. We could, in conjunction with the GAO report 
which very strongly came out in recommending that we do a full, 
fair, and open competition of the contract, while we could have 
appealed that decision or contested that decision and asked for 
reexamination of that decision, we decided not to because even 
if we felt that our position was right and the GAO decision was 
wrong, further contesting of that decision would just lead to a 
longer period of time with uncertainty.
    So we are going to go ahead in full conformance with the 
GAO recommendation of a full and open competition.
    A full and open competition of that contract requires that 
we have the requirements put in place, that we follow all the 
steps of the contracting process, and the Department of Defense 
is moving forward in an expeditious manner, in a speedy manner, 
as fast as we can go, but this is not a process that in and of 
itself is ever fast as I am sure you know, Senator.
    Senator McCaskill. I do know. I will make a bold 
prediction. DynCorp will be extended again and DynCorp will be 
there doing this until a decision is made as to what extent our 
level is going to change in terms of our commitment in 
Afghanistan sometime next year.
    The lesson that probably needs to be learned here is that 
shortcutting the process through existing task orders and 
contracts is what generally speaking the Pentagon likes to do.
    The military has very little patience with the process of 
full and open competition. It is a process that has a number of 
required steps. But they are there for good reason. If there is 
anyplace that I think the American people have figured out that 
we have got to have some help on full and fair and open 
competition, it is the hiring of security forces and the 
training of security forces because I mean I do not know how 
many other companies in America are as well known as 
Blackwater, and it is not for good reasons.
    So circumventing that full and fair, in hindsight, I just 
want to say that the moment the decision was made to try to 
move it out of the State Department, it seems to me that full 
and fair open competition would have been the most efficient 
way to move forward rather than trying to shoehorn this into 
something else in order to take a shortcut. It turns out that 
the shortcut was not so short.
    My time is up for this round, and I will turn it over to 
Senator Brown.
    Senator Brown. Thank you, Madam Chairman. I am going to 
actually, as a courtesy, extend my time to Senator Kaufman. He 
has a few questions, and then if I could reserve and come back 
that would be great.
    Senator Kaufman. Thank you very much. I want to associate 
myself with the Chairman's remarks.
    Look, I have been to Afghanistan three times in the year 
and a half I have been a Senator. I have sat through 70 
briefings in preparation before and after leaving on those 
trips.
    I had no idea we spent $6 billion. I have not had a single 
person in any one of those briefings refer to the Afghan 
National Police as anything except a big problem. Not a problem 
to get them well, a problem just the way they sit. They are 
purveyors of corruption from one end of Afghanistan to the 
other to, as the Chairman so well put it, the rule of law.
    If we are going to build, clear, hold, and build, we have 
to have the rule of law. No rule of law. The police are the 
ones who man the barricades and on the highway stop people. 
Just read the stories about what went on in Marjah and why the 
people were so upset with us because of the former government.
    The other thing I want to say, look, the four of you are 
doing a great job. I mean I really applaud you for what you are 
doing. This is incredibly difficult. So what I am saying is not 
referring to you. You happen to be, unfortunately, the 
messengers sent to sit here at the table.
    But I think what the Chairman says is compelling. If we do 
not do something, we are in dire shape over there. I mean that 
is not a deep, dark secret. The key to it is we cannot go into 
places and clear and hold, we cannot hold if we do not have the 
police to do it and we surely cannot build and we surely cannot 
transfer.
    So we have to come up with something in the next 6 or 8 
months. As the Chairman said, this is not a decision, we are 
talking about June, starting to draw down troops. We are 
talking about making a decision this December on whether we are 
going to win or not.
    And I will tell you what. At the top of my list, not the 
No. 1 thing, but the No. 2 thing is where do we stand with the 
Afghan National Police? The attrition rates were out a bit. 
They are getting out of control.
    So really what I would like you to do if you could, and I 
know I have sat here and listened to you mention the 
deteriorating condition, lack of unity of command, and some of 
the things that have been said but this is catastrophic.
    This was not something that you can just go around the 
edges. It is a deteriorating condition so we have no police. 
And we knew what the literacy of the police are. But they are 
saying the same things now after $6 billion. We have this 
incredible problem with the literacy of the police.
    So, what I would like, if each of you would kind of--and I 
know you are under constraint. What are the one or two things 
that you really believe you could spend $6 billion on, and end 
up with practically no where--what are the two or three things?
    I got the unity of command and I got deteriorated 
conditions. What are the one or two things that we can do, and 
what is the one thing you think could best help us reach the 
point the Chairman said, so that we can move ahead and actually 
have progress on the ground so we can reach this 134,000 
trained troops?
    I will start with Mr. Heddell.
    Mr. Heddell. I will say, just for starters, just about 
everything that could go wrong here has gone wrong. And looking 
back to November 2006, it was relatively clear to my office, 
Senator Kaufman, that the training that was being provided was 
already inadequate. The needs of the Afghan police training 
were already out of date, so to speak, and it was pretty 
apparent that there was not enough management on the ground in-
country overseeing the contract.
    You are asking for a couple of things here. But I spent 28 
years in Federal law enforcement so I cannot come up with two 
things because there is at least 10 things and they all need to 
be addressed.
    The fact is, aside from the need to increase the size of 
the total Afghan National Police force just to address the 
counterinsurgency and to protect civilian population, they need 
to start at the very beginning.
    Recruiting is a tremendous challenge over there, finding 
the right people for this kind of work, and then retaining 
them, paying them what they need to be paid to live and then 
training them on the force. Of course we talked about the 
dangers and the fact that the death rate for Afghan National 
Police officers, by our records, has gone up four or five times 
what it was.
    Senator Kaufman. The total now is 129, in my briefing.
    Mr. Heddell. The average death rate per month for Afghan 
National Police officer in the last 4 years, we think, has gone 
up from 24 a month to about 125.
    Senator Kaufman. OK.
    Mr. Heddell. Those figures are approximate, but they are 
dramatic. The fact of the matter is we need to change the 
training curriculum to be able to address the 
counterinsurgency. We need to be able to teach survivability 
over there. They need to know that they can go out on the 
street, do their work and survive.
    They need tactical skills aside from the basic community 
policing skills that any police official would need to have. We 
need better trainers. The example that Madam Chairman gave with 
the Carabinieri Italians, I mean what a simple but yet an 
unbelievable situation that they had not sighted the weapons.
    Most of all, Senator Kaufman, they need leadership. They 
need police officers who can lead. If there is one single thing 
they probably need more than anything else, it is that.
    And the second thing, if I had to give you two items, would 
be find a way to dismiss so many corrupt police officials in-
country. I met, last November, with Minister Wardak, the 
Minister of Defense, and he talked for almost an hour and most 
of it was about the corruption.
    Corruption undermines everything that we are trying to 
achieve in that country and particularly with respect to police 
officials.
    Senator Kaufman. My point is you know there is an old 
definition of insanity in doing the same thing over again and 
expecting different results. And what the Chairman said is what 
are we going to do in that 6 months, and the folks in there 
that have been doing this, I mean you say there are not enough 
contract oversight.
    Part of this has to be what were the contractors doing? 
What you laid out was a problem we knew in 2001. Everything you 
said you did not have to have a Ph.D. to figure out that those 
were the 10 or 12 things that we had to do.
    We are now here 9 years later, and we are exactly at the 
same spot. You basically laid out the questions I have. And, 
Wardak and Minister of the Interior Atmar, they say all the 
right things, but what they say is there is no training going 
on.
    I am saying briefing after briefing after briefing was this 
is just where the police are. What I am trying to do is get at 
the answer to the Chairman's question. I guess, what the 
problem is, you pretty well laid it out.
    Does anybody have any ideas what to do in the next 6 months 
so that when we come up for review in 7 months, we have a 
realistic opinion of where the police are and how we can move 
forward?
    Mr. Heddell. If we have to wait for a contract, a new 
contract, we are not going to do very much. The Department of 
Defense is working with the Department of State, I know that, 
to make an interim fix. The fact of the matter is it needs to 
be fixed right now. And I can tell you you do not train a 
police officer in a year. It takes 2, 3, and 4 years to get 
there.
    Senator Kaufman. But here is the thing, and I agree with 
you about that and people talk about us going out in June and 
we cannot go out in June. We do not have enough time.
    We do not have to have all the answers but we have to make 
progress. We have to be able to say we are moving in the right 
direction. We got to be at some point like in December where we 
do not have a list of the 12 things you said that are wrong, 
which I totally agree with everyone of the them, that there is 
maybe six on the list. We are making progress on two of them.
    Mr. Sedney. I would hate to think we have to wait to get a 
contract on-board to start training police officials to 
survive.
    Senator Kaufman. Can someone else give a suggestion? What 
is it that we should do? I get back to the question the 
Chairman raised. What can we do so that we do not have to wait, 
so we come in December, we will have a good idea of whether we 
really can actually train police and get them out there on the 
job. Isn't that the question?
    Ms. Klemstine. If I could.
    Senator McCaskill. I think Mr. Sedney wants to also but go 
ahead both of you briefly or all three of you go ahead and then 
we will go to Senator Brown.
    Ms. Klemstine. Briefly I would say that I would put them 
into three areas. The first thing that we really need to do is 
we need to adequately define our requirements. Every contract 
starts on the requirements side.
    My past experience on the contract side has shown that the 
requirements are never well defined. We have to do that. Then 
we have to have adequate performance measures by which to 
reevaluate the contractors. Without any accountability, it does 
not make any difference. That was one of the things that the 
joint report pointed out that there was not performance 
measurements in this contract to hold the contractor 
accountable for what needs to be done.
    And then the third area we need to do is an adequate job of 
overseeing the contract. But in terms of overseeing the 
contract, things will have to be a little bit different than 
what we institutionally know as contract oversight just because 
we are in a war-type zone.
    So we have to develop standard operating procedures and 
adequate ways to do these type of contract oversight in areas 
of contingency operations.
    Mr. Johnson. I think I would agree on a couple of the 
points and make one further. The basic measures that would 
improve the recruitment and retention direct, more direct pay, 
direct pay for all, better and longer training programs focused 
on literacy.
    But with due respect to General Caldwell, we have trained 
many people in Afghanistan. Under his leadership, we trained 
3,000. Under General Formica, we have trained almost 16,000. 
Under General Cohen, we have trained almost 30,000. Under 
General Durbin, we trained almost 66,000.
    So there has been a great number of people trained, and the 
end strength now is about 100,000. But we have not been able to 
retain them the way we need to. As the DOD inspector general 
mentioned, it takes a longer time than a 6- or 8-week training 
program to get the kind of police officer that you need. So 
retention is a key part of this.
    I would also join the Ms. Klemstine. A clear statement of 
work so that we can move out on new training whether it is 
under the contract that we manage or if we are able to move it 
over to DOD more rapidly, to do it that way.
    But those sorts of things would allow us to proceed as 
rapidly as possible. Thank you.
    Mr. Sedney. I would offer that there are a lot of things 
that are happening now and have been happening over the past 
year that are moving us very much in the right direction.
    We do not have to start from today to do things right and 
do things better. We already have started and already have done 
things better. There are continuing changes and improvements 
underway.
    Senator McCaskill, you mentioned recruitment. Recruitment 
for the Afghan National Police has been sharply improving over 
the last several months due to a series of improvements 
including a recruiting training command, a more focused effort 
on recruitment and improved pay for the Afghan National Police.
    The recruitment is also up because we recognize the issue 
of leadership that everyone has mentioned. General McChrystal 
in his campaign strategy has focused on a key measure to 
improve performance and leadership in both the Afghan Nation 
army and Afghan National Police and that is through intensive 
partnering with the Afghan National Police by U.S. forces and 
coalition forces, throughout all of Afghanistan.
    Implementing that partnering is ongoing now. There are 
already police units that are being partnered. Units such as 
the Afghan national civil order police which had never been 
partnered before is going to be partnered now by elements of a 
special forces under ISAF.
    That partnering will help provide a bridge for the 
leadership.
    Senator McCaskill. Is that the same thing as ANCOP?
    Mr. Sedney. Yes.
    Senator McCaskill. That is the new name for ANCOP?
    Mr. Sedney. Afghan National Civil Order Police. The acronym 
is ANCOP. I try to avoid acronyms.
    Senator McCaskill. OK. I have never heard it called 
anything other than ANCOP which, for the record, ANCOP is the 
special police force that roams the country. They are not 
assigned to a province. They are not assigned to a 
jurisdiction. They are the elite police force. They were 
designed to be the elite police force.
    Mr. Sedney. Their performance has been very high. They have 
also suffered from the highest attrition, attrition meaning 
people who either leave before their contracts, attrition 
meaning people who leave before their contracts are up and the 
lowest retention meaning the fewest number of people who sign 
on for a repeat contracts.
    That is due for a number of reasons. One of them is high 
operational tempo. Another is lack of leadership which is 
mentoring and partnership. Another is because many of them are 
recruited by higher paying private security firms to provide 
private security services in Afghanistan which is a separate 
program.
    But let me go back to what is going right, Senator Kaufman. 
On Sunday and Monday of this week, I was in Afghanistan with 
General Petraeus and Ambassador Holbrook for their review of 
the concept drill, in other words an intensive look with the 
Afghans and our civilian and military leadership on our 
combined civil and military efforts in Afghanistan.
    The Minister of the Interior, Mr. Atmar, and Minister 
Mongol, the Deputy Minister of the Interior, both participated 
in that. The Afghan police and the performance of the Afghan 
police was a major subject of discussion during that.
    Minister Atmar pointed out that not only had we trained 
many police, as Assistant Secretary Johnson pointed out, there 
are many police who are performing well. He also admitted there 
are many police that are not performing well.
    Whether it is a Newsweek article or another forum where you 
focus on the problems, Minister Atmar asked us, and I am going 
to comply with his request, to highlight that there are also 
thousands, and in his words, tens of thousands of Afghan 
National Police who are doing a good job, who are not corrupt, 
who are being killed at the rate of 125 or 129 a month, and 
they are staying on the job. They are not fleeing the job. Some 
do but many more do not.
    They are committed to their country, and they often do not 
have the right resources, they do not have the right training, 
whether it is ineffective sights, ineffective equipment, 
whether they are using unarmored vehicles instead of armored 
vehicles in areas where IEDs are the biggest killers of people.
    So these are people on the Afghan side who are working hard 
to defeat an enemy that has been growing in strength.
    The message I took away, and I have spent several years 
living and working in Afghanistan as well as visited there 
about 10 times over the last year, is that General McChrystal's 
strategy of blunting the rise and the improvement that the 
Taliban had is succeeding.
    The next step of course is to reverse that. Every step of 
the way the Afghan National Police is central to that. So we 
are building a better police force. We are training a better 
police force.
    The partnership is helping us to put in place a police 
force that is going to perform better. We have a better story 
today than when you Senator and you Senator were there in the 
last several months and it will be better next month.
    Will it be dramatically improved everyday, no. But it will 
be significantly improved on a month to month basis. I feel 
very highly confident of that.
    In terms of the contract, the work that Assistant Secretary 
Johnson and I have done over the last several weeks, we want to 
make sure that we do not make any of those mistakes that you 
referred to, Senator McCaskill, in terms of the contracting 
process because more mistakes will lead to an even longer gap 
before we have a permanent contract.
    We do also need to find a way to bridge to a permanent 
contract. I agree with your prediction that the most likely, we 
both agree that the most likely outcome will be an extension. I 
hope I did not say anything a lawyer will find problematic with 
that.
    Senator McCaskill. Just say I made you answer the question.
    Mr. Sedney. Thank you, Senator.
    But we have also communicated to the State Department new 
requirements. I agree with Inspector General Klemstine that we 
need to be clear about requirements. These new requirements 
that will address the problems that were laid out by Mr. 
Heddell on the areas that we need different kinds of 
performance in the police contract and we are working now to 
see how we can have that contract, how we can accomplish those 
goals through a possible extension of existing contract.
    There might be some other options but we will continue to 
work through that. We expect to have a resolution within the 
next 2 weeks. I hope even sooner in terms of that extension or 
our other possibility.
    But as we are doing that, we are continuing to train. We 
are adding trainers for the police in other ways. The police 
contract is not the only way we are training. We have brought 
an additional coalition of military trainers. Other countries 
have put in more trainers. There are more both third country 
military trainers and third country police trainers that are 
already in Afghanistan than there were before as part of an 
effort through NATO and through our partner nations to increase 
training.
    For example, the Germans in the north who had been focusing 
their efforts on deployed military are now transitioning to 
trainers and a greater focus on training in the north and that 
is happening in many other areas as well.
    So while we focus, and I agree with you, Senator McCaskill, 
in your criticisms of the process. We have made mistakes. We 
are going to fix them. But there are many things that are going 
right, Senator Kaufman. I would be happy to go on at greater 
length.
    I apologize for taking up your time.
    Senator McCaskill. I am just self-conscious about getting 
to Senator Brown.
    Senator Brown. Thank you. Madam Chairman, and through you 
to the witnesses.
    I had a whole host of questions but in just listening I 
wanted to shift gears and then I will come back to my original 
line of questions. One of the things that I am just getting 
through the conversation is that the contract transition and 
the 5-month delay in awarding the contract quite frankly is 
putting our troops at risk.
    I am flabbergasted sometimes at the slow pace of government 
at a time when we need quick reaction and quick action on 
moving forward. So whatever tools and resources you need to get 
the job done, I would encourage somebody in your respective 
departments to start to get moving because my sense being in 
the military and also recently visiting is that we have a 
serious problem. We have to stop pointing the finger and going 
back and forth and just get the job done.
    With regard to who do we hold ultimately accountable, I am 
a little confused still. I know we have a contract. I have been 
reading. I understand it. I get it but my concern is now we are 
extending a contract that has not worked. People who have 
received $6 billion.
    There has been very little training and now we are looking 
to extend it because we do not have the ability to enter into 
another contract because we used something that we felt would 
get it done quicker when in fact it delayed us so we are more 
time behind the eight ball.
    But I am hopeful that when you do the new contract there is 
going to be a way to hold the trainers responsible for 
delivering what they said they were going to deliver because as 
somebody who is just so fed up with overspending and over 
budgeting, at what point do we hold contractors, people that we 
hire to do a job, responsible for doing that job and getting 
our money's worth?
    That is something I would like to ultimately leave for just 
someone to ultimately speak about.
    I will start with you, Mr. Sedney. You did say in the 
beginning you will need greater resources and you have not 
received the trainers. You need more trainers.
    I know in speaking to the appropriate authorities in 
Afghanistan, the United States is the only country that has 
provided the requested amount of trainers. The other countries 
have not supplied the appropriate trainers.
    Who in the food chain is responsible for trying to get the 
other countries to provide the appropriate amount of trainers?
    Mr. Sedney. Senator, first of all, let me say in response 
to the first part of what you said. I agree with you entirely 
and I can tell you I share your impatience and I can pledge you 
my greatest efforts to make both the quickest and the most 
effective response because sometimes speed works against 
effectiveness.
    On the issue of trainers that you raised, the U.S. forces, 
the U.S. military has provided the requested trainers under the 
NATO request because this is a NATO mission. We have a number 
of countries that have responded well to the combined joint 
statement of requirements----
    Senator Brown. But they have not fulfilled their 
obligation.
    Mr. Sedney. There are a number of countries we continue to 
work with and the overall number of unfilled spaces under the 
NATO combined joint statement of requirements is in the several 
hundreds, well over 400 when I checked this morning.
    That certainly will be a major area of discussion with our 
colleagues both at NATO and also in the upcoming NATO 
ministerial in Estonia.
    At the same time as we are looking for other countries to 
step forward within the NATO context, we have also had a number 
of discussions and am not going to name the countries for 
reasons of the diplomatic confidentiality but a number of 
countries which have not yet been involved in Afghanistan have 
shown interest in contributing trainers.
    We are working aggressively with them because they see the 
challenge that instability and extremism in Afghanistan poses 
to their own national security. So we are not being limited by 
the past. We are actually looking into new and different areas, 
and again I would be able to do that in a more confidential 
setting because I do not want to put countries on the spot 
while we are in the middle of diplomatic negotiations.
    But I believe there are a number of areas of hope there. At 
the same time I want to stress what I said in response to 
Senator Kaufman, we are training police. The coalition and we, 
the United States, are training police and moving forward. This 
is an area where we are going to succeed.
    Senator Brown. Thank you very much and I appreciate that. 
And I know who is helping and who is not and I would encourage 
the Administration to strongly encourage them to do what they 
said they would do.
    We all know about the $6 billion that has been spent and 
fewer than 12 percent of the country's police are capable of 
operating on their own.
    We know about the lack of respect that the police get in 
Afghanistan based on their corruption and lack of training, 
etc. So considering all those problems, I guess I would defer 
this question to the IGs. Considering all these problems which 
have been apparent for a while who ultimately is responsible in 
saying how do we not fall into this rut again.
    Mr. Heddell. I will be glad to try, Senator Brown.
    Two areas, one is simply the training of police officers 
and doing it in the right way with the right trainers, with the 
right curriculum. The second part of that is managing and 
oversighting a contract worth billions of dollars.
    In both categories, if we are going to do it and we are 
going to do it obviously, we have to do it right. Under each of 
those categories, there are things that we need to do.
    I mean, under the management oversight of the contract, for 
instance, we need to have oversight and management in-country 
looking at the contracting officer representatives on the 
ground in-country.
    With regard to the contract itself, we have to have 
performance measures. We have to specifically say what we 
expect that contractor to do. Then we have to measure that 
contractor's performance.
    With regard to property, DynCorp spent millions and 
millions of dollars on property and we did not do inventories. 
We did not know what we had or what we did not have many times.
    Senator Brown. Right. Well, there is no property 
management. There is no accountability. There are no hand 
receipts. There is nothing.
    Mr. Heddell. That is correct.
    Senator Brown. How does that happen?
    Mr. Heddell. Because there were no managers on the ground.
    Senator Brown. What are they getting paid for? Why is that? 
When they are getting paid to do a job, there has got to be a 
chain of command. There has got to be a natural flow chart. 
Here is the boss. Here is the subordinate. Where is the break 
down? I am missing it.
    Mr. Heddell. I can tell you what happened.
    Senator Brown. Where is the breakdown?
    Mr. Johnson. As I mentioned in the statement that I made, 
the oral statement, in adapting the procedures that we had to 
working in a wartime environment, we developed what we thought 
were effective compromises, sometimes in consultation with our 
OIG colleagues, so that for example the contracting officers' 
representatives' files were retained in Washington.
    It was, therefore, a 24-hour delay, due to the shape of the 
globe, before someone on the ground in Kabul would have access 
to that material.
    They always had access to the material 24 hours later but 
it is not the same as being able to have the materials in the 
front of you.
    We did this because we were working in an environment where 
we were seeking to manage our risks, having no more people on 
the ground than we thought we had to. I think in retrospect, 
having more, taking some risks in the hiring process and having 
places doubled-billeted or triple-billeted going through the 
clearance process would have made more sense.
    I am anxious to come before you at some point, and the 
Chairman call me down for having so many people on the ground 
that I have lost the concept of materiality in auditing.
    Senator McCaskill. I will not do that.
    Mr. Johnson. I am aiming for it. But that is where we are 
trying to head.
    We did do some things in order to compensate for that by 
making all of the payments for the contract provisional in 
nature so that we can claw them back if they need to be and we 
have when we found issues that need to be addressed.
    As the Inspectors General pointed out, any delay in doing 
that, though, represents potential for lost documents, for lost 
memory, and reconciling that process over time is not nearly as 
efficient and effective as doing it at the time payment is made 
even though it does protect the government.
    So we are moving as rapidly as we possibly can in the 
direction of having more and more people on the ground.
    Senator Brown. Thank you. I have run out of time, Madam 
Chairman.
    Senator McCaskill. Let me first ask about the 2006 audit. 
Let me ask who did this before we started contracting this? 
Special forces?
    Mr. Johnson. When the effort was first made to train police 
to do security sector reform, as it is called in diplo-speak, 
in Afghanistan in the early part of 2002 there was a division 
of labor among members of the G-18.
    The United State took responsibility for the Afghan 
national army for reasons which I think were intuitive to 
everybody in the room.
    The Germans who had a latent program that existed before 
the Russian invasion and before the Marxist coup that took 
place before that wanted to take the police responsibility on. 
They did but their approach was a very long-term approach.
    Senator McCaskill. Right.
    Mr. Johnson. And so we step in, the State Department did, 
and began a very modest training program in order to try to get 
people on the ground as quickly as possible.
    But as you may or may not recall, the diplomatic theory at 
the time was to have a relatively light foot print. We do not 
have ISAF outside of Kabul. We were still operating only 
Operation Enduring Freedom efforts outside of that.
    This has grown over time as we have seen and this is one of 
the issues that I think we need to take into account here. It 
is not so much that people did not do what we wanted them to 
do. It is that both our objectives and the situation on the 
ground has evolved and sometimes in unexpected and marked ways 
during this period of time.
    Senator McCaskill. Let us just assume. We had this 
requirement to train local police during a counterinsurgency in 
Iraq. We now have the mission to train police during a 
counterinsurgency in Afghanistan.
    I do not think it is beyond anyone's imagination that if we 
are fighting a counterinsurgency that that is going to be 
something that is going to have to be a core competency of our 
military as far as the eye can see.
    Would anybody disagree with that? That training local 
police in a counterinsurgency is something that should be a 
core competency of our military for as far as the eye can see.
    Mr. Sedney, would you disagree with that?
    Mr. Sedney. I personally would not disagree with that. In 
terms of just how we are going to allocate the division of 
responsibility in the government for future counterinsurgencies 
in terms of training police I believe that is still a matter 
that we have not fully come to closure on but I take your point 
and I would say I personally agree.
    Senator McCaskill. I will tell you this. That is what I 
would like to see come out of this hearing. In the volumes of 
information that I have consumed on this, there is no question 
that the trading back and forth, the fact that after 2006, you 
had an audit report that said you needed in-country CORs, and 
there were years that you maybe had one on a task force and 
they were not really doing any on-site checking because of the 
security risks.
    I mean it is unacceptable that--you know, I think I have a 
couple of documents that by the beginning of 2008, nearly 675 
million was obligated without any evidence of an ICOR 
functioning in Afghanistan. That comes directly out of the 
report.
    Prior to June 2009, there was only one in-country 
contracting officer's representatives on the main ANP task 
order. That is not going to work.
    Anybody who is doing contract oversight will tell you that 
the kind of presence in-country in this kind of environment is 
woefully inadequate.
    So if we are going to be operating in the counterinsurgency 
as we do this local police training, it seems to me that it is 
imperative that somebody step up and say this has got to be a 
military COR competency and stop this, well, the State 
Department was not doing it. Well, we got to get it back under 
the military because the State Department contractors are not 
paying attention to us. State cannot really get out in the 
contingency because of the security risks.
    I mean if you look at this back and forth over the last 4 
or 5 years, you can say all you want to how many have been 
trained.
    But I think if we are honest about how many are currently 
operating at an effectiveness level in the country of 
Afghanistan, Americans have not gotten a good deal on their 
investment.
    So I am trying to get someone to come to the table and say 
it is time that people at the very top of the State Department 
and the very top of the State Department and General Petraeus 
acknowledged that this needs to come to defense and it needs to 
stay there.
    Is it not true that there is a plan already in place to not 
only--we are trying to transition it to defense but we cannot 
get it done because it was not done right and there is already 
planning going on on how to transition it back. Is that not 
true?
    Mr. Sedney. There certainly is discussion about what will 
follow after a transition to Afghan security lead so I am aware 
that there are discussions. I am not aware of a plan along the 
lines that you discussed but I have to confess I will not be 
able to speak for every plan in the Department of Defense. But 
I personally am not aware of such a plan, Madam Chairman.
    Senator McCaskill. I think there is a chance that we will 
be doing police training in counterinsurgency operations in 
other places besides Afghanistan. That is something clearly if 
you understand the security threats around the world whether it 
is Somalia, whether it is Yemen, this is something that is 
going to be ongoing. It is my understanding that prior to the 
State Department taking this on that this had been a special 
forces function, the training, before it went to private 
contractors.
    Mr. Johnson. That is not my understanding. The special 
forces were operating as part of Operation Enduring Freedom. 
They had many liaison relationships throughout the country as 
part of that.
    But the police training which began after hostilities were 
concluded formally, if you will, was the responsibility first 
of our partners and then we began taking on more and more of 
that.
    If I might say while I have the floor, I think we are going 
to find that we need more than one solution to this problem 
because there are going to be places in the world where a 
defense-led effort will be both more appropriate and more 
effective and acceptable, and there are going to be places in 
the world where if only for reasons of acceptability from our 
partners, having a civilian-led effort is going to be also 
needed to be in this mix.
    Senator McCaskill. My reference to special forces was 
worldwide. It had been special forces prior to the State 
Department. You are referring to Afghanistan. There was a time 
that the State Department was not involved in this and it was 
purely military that did training of local police under these 
circumstances.
    Mr. Johnson. My earliest recollection of this comes in our 
initial effort to assist the training of the police force in 
Haiti in the early 1990s and that was a State-Department led 
effort. I understand that before that when there were needs 
there may have been special forces training programs which bled 
over to civilian police but it has not been the civilian lead 
at least over the course of the last couple of dozen years.
    Senator McCaskill. OK. Did you want to add something, Mr. 
Sedney?
    Mr. Sedney. No.
    Senator McCaskill. No. OK. Senator Kaufman.
    Senator Kaufman. You are doing great. Keep going.
    Senator McCaskill. Why do you not take another round, 
Senator Brown, and then I will probably come back for one more.
    Senator Brown. Thank you, Madam Chairman. I appreciate it.
    This has been very interesting. I wanted to just touch on 
the civilian training verses military style paramilitary 
training. Although the primary reason for change certainly is 
sensible, the Afghan police are suffering inordinate casualties 
in the field compared to their counterparts in the army based 
on this new emphasis on military style training, I think 
precipitated by the several debates between the State 
Department and DOD.
    The State Department and DOD inspectors' report that we 
have been obviously cited the delay in changing the curriculum 
to emphasize the paramilitary skills as the problem in the 
current DOD-State Department management.
    Did this delay stem from the resistance by the State 
Department to buy into this change or resistence from DynCorp 
or basic bureaucratic problems or for some other reason?
    Mr. Johnson. There is no resistance to this on our part. We 
will respond to the defined requirements. If it requires 
additional or different trainers, that is what we will seek. If 
it requires skills that are outside the scope of civilian 
trainers, we will inform our military colleagues that we are 
not in a position to provide that service.
    Senator Brown. Do you wish to comment on that, sir?
    Mr. Heddell. Yes. There is actually something I think to be 
learned from your question, Senator Brown, in the sense that 
the original contract required that there would be this joint 
relationship between the Department of State and the Department 
of Defense.
    And that in order for the Department of Defense to make a 
change, for instance, in the training curriculum, it was 
required that DOD provide at least 120 days notice before that 
change could be effective.
    What we found when we interviewed staff from the State 
Department, they indicated on average it took 6 months to 
actually execute a change.
    It brings us to the heart of the issue which is that the 
Department of Defense needs in this particular case to be able 
to talk directly to the contractor. That was really the heart 
of the problem.
    The bureaucracy was holding us back and the lack of 
contracting management on the ground to effect these changes 
and bring about a new curriculum and to do the things that DOD 
needed to have done, the structure was not in place to do it.
    So what we learned from that is that we should not have 
this intermediary where DOD has to go through another entity to 
make changes.
    And we do not want to build a contract where it takes 120 
days to make a rapid change when the insurgency is making rapid 
changes every day that we have to adjust to.
    Senator Brown. I think that is accurate. I just want to 
shift gears just a minute. When we talk about the training, and 
I asked these questions in Afghanistan, it has gone from 8 
weeks to 6 weeks.
    Do we really think that is adequate enough to instill 
professionalism and ethics in that police force, into the 
trainees, and is that enough time to actually filter out those 
trainees to determine if they in fact have the ability to be 
professional and ethical?
    I think that is probably an IG question.
    Mr. Heddell. I would be glad to give you my opinion on 
that, Senator Brown. From the standpoint of basic training, no, 
6 weeks, in my own opinion, is not enough.
    Senator Brown. Especially since you do not have all the 
trainers you need as we referenced.
    Mr. Heddell. The fact of the matter is that 6 weeks or even 
8 weeks or even 16 weeks is not enough for anyone if you do not 
have some follow-up because, as I said earlier, it takes years, 
not weeks, not months but years to develop a police officer 
just to be at the acceptable level.
    So I presume that the reason that it went from 8 weeks to 6 
weeks is to get more police officers through the training.
    But once they get through the training, they need 
mentoring. They need advanced training. They need follow up. 
There is so much more to it than simply putting through a 6- or 
8-week course.
    So I do not necessarily think that whether it is 6 or 8 
weeks is right or wrong. I think what is important is that 
there has to be a long term plan here for development.
    Senator Brown. So are we asking for contractors to put too 
much of an influence on the quantity of trainees versus actual 
quality or ethical responsibilities and professionalism? Do you 
think we should maybe go to a different standard of some kind?
    Mr. Heddell. Well, I cannot answer the question. It is 
probably more for the Department of Defense or Department of 
State. But it would appear to me that the way we were doing it 
was just not going to work.
    Senator Brown. So saying that and referring it over, what 
is the solution? How do we change from quantity to quality to 
get the value for our dollars?
    Mr. Sedney. We are currently working on addressing both and 
we are very aware of the challenges that you laid out, Senator 
Brown.
    To address the specific question of the 6 weeks versus 8 
weeks training, yes, we have transitioned to 6 weeks training 
in order to be able to make maximum use of the police training 
facilities and produce more police.
    But those 6 weeks of training are better than the 8 weeks 
before. There is not less contact hours. There are more contact 
hours in those 6 weeks. It has gone from, we have shortened a 
rather long lunch period to a shorter lunch period. The 
training is longer days. One day off has now become a day of 
training.
    So the actual contact hours over 6 weeks is greater than 
the 8 weeks.
    Senator Brown. Right. I am aware of that.
    Mr. Sedney. So it is not a lesser training.
    However, I agree with Mr. Heddell. This is not a weeks or 
months long process. It is a year's long process. The key here 
is not just continued training but also modeling, and that is 
where the intensive partnering that General McChrystal has put 
in in both the army and the police is so important because in 
order to instill those ethics that you talked about, the Afghan 
trainees, the Afghan policemen have to see them in operation. 
They have to see that they work.
    In the past we would train people and put them out into a 
corrupt society. No matter how well you train them, whether it 
was 8 weeks, 6 weeks, 16 weeks or 60 weeks, if you just stuck 
them out with no mentoring and training they were going to 
become more corrupt.
    We have realized that. Now we are working to change that. 
We also have developed and are going to be putting more 
emphasis on continued and repeat training, as Mr. Heddell 
mentioned, because again you have to keep bringing people back 
on.
    Senator Brown. I am sorry. I do not mean to interrupt. I 
understand that. We got fully briefed as to what it is.
    I guess at least in my second question, so how much is it 
going to cost? I mean what is the number that the American 
people are ultimately going to be responsible for next year and 
the year after and the year after? What type of dollars are we 
talking about to once again to come up with?
    Mr. Sedney. I do not know the exact figure for what we have 
requested in the supplemental. I will be happy to get that up.
    Senator Brown. Do you have a general idea if you do not 
have an exact number? Do you have a general number, an 
approximate number?
    Mr. Sedney. I understand and my staff is always willing to 
come up, is going to give me an exact number. I was going to 
say about $6 billion.
    Senator Brown. For a year?
    Mr. Sedney. Yes, $6 billion for this year.
    Senator Brown. Just to stand up a police force, it is going 
to be $6 billion a year?
    Mr. Sedney. The Afghan police and national army is together 
about $11.6 billion in fiscal year 2011 request. That is the 
Afghan National Police and army together.
    Senator Brown. So $11.6 billion is to basically uplift the 
police and army in Afghanistan.
    Mr. Sedney. And continue to train them, pay them.
    Senator Brown. Equip them. The whole nine yards.
    Mr. Sedney. Right.
    Senator Brown. I will save my remaining questions for 
follow up. Thank you.
    Senator McCaskill. I have several questions I want to get 
to so I will try to limit my editorial comments because I know 
I am the biggest offender. If you all will try to help me by 
keeping your answers brief.
    I want to make sure I get a couple of documents in the 
record. The first has to do with the State Department's ability 
to oversee contractors. Without objection, if there is an 
objection just let me know, I want to enter into the record the 
contractor past performance evaluation document that deals with 
the evaluation of Blackwater in Iraq.\1\
---------------------------------------------------------------------------
    \1\ The contractor past performance evaluation submitted by 
Chairman McCaskill appears in the Appendix on page 101.
---------------------------------------------------------------------------
    This is a dollar value on a contract of $1.2 billion. This 
occurred after the killing of 17 Iraqi citizens in Nisor 
Square. That is why it is important to remember the time frame 
here, that this was around the problems of that.
    When you read this document, the question is asked, would 
you recommend the contractor be used again, the answer is yes. 
It states that, this is the quote that is used in reports, 
``incidents cause the program officer to lose confidence in 
Blackwater's credibility and management but concludes that new 
personnel have improved confidence in the contractor that, it 
is expected that next past performance evaluation will be 
substantially improved.''
    I would like to place that in the record.
    Senator Brown. No objection, Madam Chairman.
    Senator McCaskill. The second thing I would like to place 
in the record is the DCAA DynCorp audit. This audit is an audit 
that came out in November of last year. As of last November, 
these are some of the findings of the audit of DynCorp. Keep in 
mind this is the contractor we are stuck with now. We are going 
to have this contractor for the indefinite future since we are 
going to a full and fair open competition which means it will 
likely be at least a year from now before there would be a new 
contract.
    These are some of the findings. Inadequate controls to 
ensure contract briefs contain adequate information for the 
billing department to prepare current, accurate, and complete 
those vouchers. Inadequate control to verify pay rates were 
authorized and accurate. Failure to prepare adequate budgets 
which may result in significant over or understatement of 
proposed costs. Failure to notify the government upon awards of 
subcontracts.
    This is problematic from an auditing standpoint because 
this is all the documentation that is necessary, all the 
oversight that is necessary to make sure that they are not 
walking away with our money and not performing the work.
    So I want to make sure that we enter that audit into the 
record.\2\
---------------------------------------------------------------------------
    \2\ The information about the audit submitted by Chairman McCaskill 
appears in the Appendix on page 104.
---------------------------------------------------------------------------
    Tell me where the $80 billion is now, Mr. Johnson, that was 
found in the audit. Has it been returned?
    Mr. Johnson. It has not been returned. The monies have been 
obligated against a task order and the reconciliation is 
ongoing on that task order. As soon as that is completed and we 
determine how much should be returned, we will do so 
immediately.
    Senator McCaskill. Could you respond to that, Mr. Heddell 
or Ms. Klemstine? Is it true they were obligated? I thought you 
found in your audit they were unobligated.
    Mr. Heddell. What we found, Madam Chairman, is that the 
Department of State improperly kept $80 million that had been 
transferred from the Department of Defense even though the 
funds had expired.
    The money we are talking about was used specifically, was 
supposed to be used for Afghan National Police training. It 
came in three separate appropriations and each appropriation 
had an estimated availability period. And, as of December 2009, 
the Department of State was still holding $80 million, and the 
availability period for that $80 million on the first one 
expired, $56.8 million expired in September 2007, and $23.2 
million expired in September 2008.
    As of January of this year, that was our understanding.
    Senator McCaskill. Do you disagree with that finding, Mr. 
Johnson?
    Mr. Johnson. I do not disagree that it would have expired 
had it not been obligated but it has been obligated and has to 
be reconciled against these billings so that we return the 
proper amount.
    Senator McCaskill. I assume you are saying it was obligated 
during the audit period or it was obligated after the audit 
period?
    Mr. Johnson. It was obligated prior to the audit period. 
What the Inspector General is referring to is that had it not 
been against a task order which was during the period of time 
the money was available to be spent, had it been fully 
reconciled, any monies left over should and would have been 
returned to the Treasury Department or to DOD depending on the 
date at which it became available.
    We are doing our best efforts to complete that process so 
that we return exactly the right amount.
    Senator McCaskill. Mr. Heddell.
    Mr. Heddell. Madam Chairman, it was obligated but the money 
had expired and it was not expended. The money, as far as we 
know, has never been returned to the Treasury Department.
    Senator McCaskill. So what you are saying is the obligation 
makes no difference if the time period expires and it is not 
expended.
    Mr. Heddell. That is my understanding.
    Senator McCaskill. I think that is something that I would 
like to writing an answer with somebody's signature that you 
all disagree with that because $80 million is a lot of money.
    Mr. Johnson. I would be pleased to provide you with that.
    Senator McCaskill. DCAA told the Subcommittee that the 
State Department did not engage them to perform real-time 
reviews. Why have you not used DCAA for this type of review? 
And second, in the audit it was reported that the State 
Department had canceled an audit. The contracting officer had 
canceled an audit. I would like an explanation on both of 
these, why DCAA is not being used for real-time reviews and 
second why you would ever cancel an audit.
    Mr. Johnson. We are using DCAA and we are very pleased with 
their assistance to us.
    Senator McCaskill. Great.
    Mr. Johnson. We had a point of confusion between us and 
them about the request that we hade made of them. We were 
ongoing and worked on a request for a transfer of funds to pay 
for this audit on two other task orders and those were ongoing.
    And for reasons having to do with the way that payment was 
processed, one of those requests under one of those task orders 
was accidentally canceled. We were unaware of that. When we 
became aware of it, we began re-engaging with DCAA on that 
specific task order. Those discussions are ongoing. We intend 
for them to come and work for us and we intend to pay them for 
it.
    Senator McCaskill. OK. Since we are going to have a State 
Department-run contract on police training in Afghanistan for 
the foreseeable future, are your in-country CORs getting out in 
the field as we speak? Mr. Johnson, are they conducting regular 
site visits to the training sites at this point in time?
    Mr. Johnson. They are getting out and they are conducting 
regular site visits. I do not think they are there yet because 
the numbers are not up to what we want them to be conducting as 
regular and frequent site visits as I think we want and I think 
as our oversight colleagues would like but we fully intend to 
remedy that.
    Senator McCaskill. I would certainly like, I mean we will 
follow up with some of these questions. We want to be notified 
how many you have on the ground every quarter and we want to 
know how many site visits are going on, how many of them are 
regularly scheduled and how many of them are unannounced.
    The unannounced site visits are crucial in a contract like 
this. That is when you find people doing things I mean I hate 
to bring back bad memories of another hearing. But when you 
have craziness going on with the security force at an embassy 
which also happened in Afghanistan, those unscheduled site 
visits are incredibly important.
    Mr. Johnson. In my checkered past I was a bank examiner.
    Senator McCaskill. You know about showing up unannounced.
    Mr. Johnson. Right.
    Senator McCaskill. Let me turn it over to Senator Brown for 
a few follow up questions.
    Senator Brown. I just want to go on that line of 
questioning, Madam Chairman, and then I will go back.
    On the $80 million issue we were talking about, is there an 
enforcement arm of any kind that says, hey, listen your time 
has expired. You have the money. You have not used it. It is 
time to come back to the Treasury Department.
    Is there any mechanism that you have because I have to be 
honest with you, it seems like it is political doublespeak in 
terms of you know the money has not been used. It was back in 
2007 and 2008. We are in 2010. And then you say, well, it was 
not allocated before the audit. Well, if not, then when was it 
allocated because it is 2010, and the time expired. Was there 
an amendment of some sort that went into effect? Is there an 
agreement with the appropriate authorities to extend it out to 
another period of time to give you the authority to continue to 
retain that?
    Mr. Johnson. If I poorly communicated, I am sorry. My 
understanding is the monies were obligated against an ongoing 
activity. As soon as all the reconciliation of the billings 
which took place during that time period, not billings which 
will take place later----
    Senator Brown. It has been what? Three years now. When does 
the reconciliation take place?
    Mr. Johnson. It is ongoing. We are running at about a 2-
year delay from conclusion of the task order.
    Senator Brown. That is 2009, if we were in 2007. So it is 
longer than that obviously. We are in 3 years now, right?
    Mr. Johnson. I am not certain but I will work that time 
line for you, yes, sir.
    Senator Brown. I guess what I am trying to say is you know 
I am a firm believer in contracts and dates. As it is the rule 
of law, we have a date. We perform. We fulfill. If we do not, 
it goes back.
    There seems to be a slippery slope here that we are going 
down in that you know we allocate money, taxpayer money, hard-
earned taxpayer money for certain purposes. It does not get 
used. It should go back to be re-allocated, to be reused.
    We could use it right now for unemployment insurance to 
find another way to pay for that. I am hopeful, Madam Chairman, 
that we can get a reasonable answer, like why was not the 
reconciliation done right away, when are we going to have it 
done, and when if at all and how much money is actually going 
to be actually returned?
    I would also like to have that in writing for us to review.
    Do you have the ability, sir, to delegate the site visit 
responsibilities to the military or any other entity to assist 
you until you get up to speed, because I hear you? I 
understand. I was there. I get it now. I see how big it is.
    But if you are not up to speed and you cannot account, we 
are giving billions of dollars to people, is there anything 
that I can do, make a recommendation to the President or to the 
Majority Leader, anybody who is dealing with this issue to give 
you the tools and resources you need to either delegate or get 
this job done quicker and more efficiently?
    Mr. Johnson. In terms of some issues, for example, 
inventories, we have worked with the military to assist us in 
those. I think though that there is no substitute to have 
contracting office representatives who know the contract, who 
are trained to do this type of work there on the ground and 
getting out to do those things. That is the aim that we have.
    One of my kind colleagues pointed out to me that the monies 
that were appropriated for fiscal year 2007, could have been 
expended on things through September 2009. So we have a little 
while where we need to make sure we paid all our bills before 
we give the money back.
    Senator Brown. OK. I would appreciate that in writing.
    Madam Chairman, I forgot and I am wondering if you will 
accept my modified opening statements for the record, if 
possible.
    Senator McCaskill. Your opening statement will be made part 
of the record.
    Do you have anything else?
    Senator Brown. I do but I will allow you to get back to 
your line.
    Senator McCaskill. That is OK. Why do you not finish up 
because I only have one or two more questions? See if there is 
anything else you want to cover.
    Senator Brown. Just some general questions. As you know, 
the Afghan culture is largely tribal and locally based. I 
wrestled with this when I was there when I was getting back.
    Does it make sense to have a national police force that 
basically the tribal leaders do not recognize, they do not 
know. Some of the individual citizens do not even recognize the 
uniforms. Does it make sense to have a one-size-fits-all 
strategy in Afghanistan?
    Mr. Sedney. The kind of security force that we should have 
in Afghanistan is one that has been discussed and the question 
that you raise is an excellent one, Senator Brown, and there 
are people who have felt very strongly for all sides of a 
question that has many answers.
    There are certainly areas of Afghanistan where a national 
police force, a uniformed police force, large cities. Kabul has 
well in excess of 4 million people there now. For example other 
major cities.
    In some of the rural areas, Afghan justice is very much in 
the hands of traditional justice systems.
    One of the problems however is that over the years, 
especially as the result of the occupation by the Soviets 
during the civil war a lot of those traditional structures have 
either been destroyed or been seized by small, powerful, 
maligned actors who pervert the local systems so that they do 
not work effectively.
    So there are a number of activities that are going on 
looking at restoring those local activities in a way that is 
acceptable to the broad expanse of people while at the same 
time building national police in areas where they are most able 
to be effective.
    The latest polling I saw on that was of rural people in 
eastern Afghanistan where 38 percent of the people said they 
preferred local gurkhas to national police. Fifty percent of 
the people said they preferred national police to local 
gurkhas.
    So you have a fairly significant split but the people 
thought very strongly on both ways.
    It is a country in transition, and we are working on all 
those areas. But I would say that in terms of the kind of order 
that is required in the midst of an insurgency, the police have 
played, continue to play a very important role.
    In many ways, the acceptability of the police depends upon 
their performance. You and Senator Kaufman just mentioned the 
areas where there have been problems of the performance of the 
police.
    Minister Atmar has developed a program called the personal 
asset inventory that is designed to combat corruption. He 
believes that the increased prosecution of corrupt police 
through efforts by the major crimes task force we put in place 
are already having significant improvements in that area.
    We support Minister Atmar in those efforts and look forward 
to continued qualitative improvements in the police force.
    Senator Brown. I have a whole host of questions but in the 
interest of time I will narrow it down to the top three at this 
point. They are not too difficult. Is that OK?
    Senator McCaskill. Absolutely. We will take as many 
questions as you have for the record and we will keep that open 
for a week so that any additional questions we did not get to 
today because I have the same problem.
    Senator Brown. Thank you.
    Senator McCaskill. If we stayed here with all my questions, 
it would not be good.
    Senator Brown. Would you like to go?
    Senator McCaskill. No. Go ahead. You finish up.
    Senator Brown. Thank you.
    I found it fascinating and so did our team. 500 meters from 
our forward operating base there are poppy fields all over the 
place. I know the reasons why. I get it.
    But is there, and I guess it would be directed to either 
one of you. Is there a plan? Are we going to eradicate? Are we 
going to allow it? Are we going to transition? Are we going to 
give them time lines? Listen, we know you are doing it, we know 
why you are doing it. But listen you only have another year to 
do it and then we are going to transition you into a different 
crop. And if you do not, then we are going to just eradicate 
it, because I have to be honest with you, seeing all those 
poppies--flying in those choppers for 3 days everywhere we 
went--in full bloom, I just thought about how that transitions 
into lives in our country and young people and others using 
drugs.
    Any thoughts?
    Mr. Johnson. You are correct in that we have had a rather 
expensive and not very effective eradication program in the 
past where we attempted to provide the ability of the central 
government to have the eradication capability.
    Seeing the expense involved and the relative inefficiency, 
practically in the areas where you were where poppy growing is 
indeed an agribusiness, Ambassador Holbrook has determined that 
we should focus instead on seeking an alternative livelihood-
based approach where we find more and more opportunities for 
these individuals to grow a legitimate crop.
    I think that program is just barely getting underway. It 
could have significant impact over the course of the next year 
or two.
    Outside of the area where you were the area of Afghanistan 
is largely poppy free. In Helmand and in Kandahar, it is a 
basic business though.
    The other issue is we are focusing much more clearly on an 
interdiction effort. The Drug Enforcement Administration's 
deployment in Afghanistan is the largest on the planet. It is 
working very hard in concert with the capabilities that we are 
helping to develop, my colleagues and I, of the Afghans to have 
their own counter narcotics police.
    Those have been quite effective over the course of the last 
several months. The seizures are up. But this very much remains 
a work in progress.
    Senator Brown. Well, it is interesting. The seizures are up 
but then the growing is up too in certain regions.
    Getting back to policy a little bit I have two more short 
questions. How many companies are currently capable of 
providing police services such as the ones in the contract? Who 
are they and do they have a fair opportunity to compete for the 
business?
    And then how would re-bidding for the contract of Afghan 
police forces impact America's ability to win and perform our 
mission the next couple of months, and years, I should say?
    Mr. Johnson. The current indefinite quantity, indefinite 
delivery contract that we work under for the civilian police 
program in the State Department has three participants.
    DynCorp is one, Pacific Architects and Engineers is the 
second one, now a division of Lockheed Martin, and the third is 
Civilian Police International, that I think is a division of L-
3.
    We have, just this week, put on the street a request for 
proposals that we hope will provide us a much broader number of 
companies who are willing and able to provide this service. We 
anticipate the program will close in terms of the bids being 
due I believe in June and we will have a period of time in the 
summer to evaluate.
    It is my goal, and I have been working on this for some 
time, to broaden that contractor base because I think there are 
more companies and more opportunities out there than we have 
had in the past.
    Senator Brown. Thank you, Madam Chairman. I will defer to 
you.
    Senator McCaskill. Thank you, Senator Brown.
    Mr. Heddell and Ms. Klemstine, do you think that the State 
Department has added enough in-country contracting 
representatives with the acronym of ICOR, do you think they 
have added enough to provide adequate oversight to this 
contract?
    Mr. Heddell. Madam Chairman, what I know from January of 
this year I would say no. Unless something has occurred in the 
last 30 days, I am not aware of it. But I would say no.
    Senator McCaskill. Ms. Klemstine.
    Ms. Klemstine. I would reiterate that answer being no. 
However, I do think that there are plans in place to increase 
the number. I think if they get up to that number they will 
probably be in pretty good shape at that point.
    Senator McCaskill. What is that number?
    Ms. Klemstine. I believe it is 33.
    Senator McCaskill. In-country?
    Ms. Klemstine. Yes.
    Senator McCaskill. Is that correct, Mr. Johnson?
    Mr. Johnson. There are not 33 presently in-country. There 
are seven currently in-country. Our aim by September is to get 
to 22.
    Senator McCaskill. Is 22 enough, Ms. Klemstine?
    Ms. Klemstine. I would have to go back and re-evaluate 
that. I do not know that off the top of my head.
    Senator McCaskill. I think if you are working toward 22, as 
soon as we could possibly get the input of your agency that did 
the audit whether or not you think that is an adequate number. 
I would hate for us to have a goal of 22 and get there and 
still know we do not have enough to adequately keep track of 
what is happening with this contract.
    It is my understanding the people you are hiring to do this 
are in fact contractors?
    Mr. Johnson. Madam Chairman, the individuals who have 
traditionally done this are what are known as personal services 
contractors.
    I know I could read you from the FAR what that means and 
how it is virtually the same as an employee but I also know 
that it would not answer the mail for you.
    We are in the process of using an opportunity we have under 
the law of so called 3,161 employees. We plan to convert as 
many of these individuals as possible to that employment status 
so that they will be direct employees of U.S. Government.
    I have the opportunity in Afghanistan but I do not have it 
globally. I will be looking for other ways to provide direct 
employees who are performing this service because I recognize 
the demand that you made that we have them not just be the 
functional equivalent of direct employees but actually be so.
    Senator McCaskill. Mr. Sedney, if you all take it back, 
does that mean you have the CORs ready and available to oversee 
this contract?
    I have spent an awful lot of time talking to people in 
uniform about contracting representatives over the last 3 
years. Would it be your plan to try to utilize the individual 
personal service contracts that the State Department is going 
to execute over the next 6 month to oversee this contract?
    How do you envision the contract oversight working if you 
all in fact enter into a contract as opposed to the State 
Department?
    Mr. Sedney. In terms of the complete and open competition 
that we are looking for, the numbers of contracting 
representatives will be part of that process. We are in the 
process of determining what that will be now.
    In terms of what the contracting officer representatives 
that Mr. Johnson was talking about having in place, our people 
out in the field have helped to contribute to the request for 
additional contracting office representatives.
    In terms of one of the requests that we are making of the 
Department of State if we were to extend the current contractor 
with DynCorp beyond that time, additional contracting office 
representatives are one of the areas that we have agreed is 
important and would like to see move forward.
    I do not have the figures on the exact numbers that we 
think would be necessary and we can get back to you on that.
    Senator McCaskill. I think it is really essential. I will 
be shocked. It will be like winning the lottery if we end up 
with anybody other than DynCorp through the time period in 
which the President has indicated that we are going to have 
this increased presence.
    In that case, if there is by a chance to transition, it 
will be terribly counterproductive if you have CORs in-country 
that are there and have made the commitment to be there for all 
of a sudden then get pulled back because now we have switched 
again.
    It would be unconscionable to switch contractors and not 
have a CORs force ready to go to oversee that contract because 
we could go a year without anybody in-country essentially like 
we have had on this contract.
    For parts of the time there has been really almost nobody 
home. So we have to make sure that happens and I am going to 
depend on the two of you to communicate and figure out how to 
work that out. And if you need help above you, you need to 
speak up if there is going to be an issue because I do not want 
the contracting representative COR to go down anytime while we 
are making this kind of financial commitment for police 
training in Afghanistan.
    The last thing I wanted to cover on this subject matter is 
that the GDP of Afghanistan is about $13 billion a year. 
Sustaining what we are building, it is $11 billion in the 
supplemental for the army and the police, sustaining it, not 
building it but sustaining is $6 billion a year.
    I think it is pretty obvious that Afghanistan is not going 
to be able to afford to sustain what we are building for them. 
They cannot take over half of their GDP just to do local police 
and military.
    So that means the American people have probably made some 
kind of multi-billion-dollar commitment for many years forward. 
Certainly not at the level that we are this year and next year 
but certainly billions of dollars which means we are going to 
need contractors over there for many years.
    I just want to make sure that we get a sense of urgency 
about getting it right as quickly as possible because this has 
gone on way too long, way too long.
    I want to ask a favor before we close the hearing. We will 
have questions for the record for all of you. I want to as 
always thank the auditors, the Inspector General's offices, for 
your great work. It is brave. Your people went in-country and 
the services of the auditing community are not valued enough in 
our government and I hope you all know the deep respect for 
that work.
    I also want to thank both of you. This was not an easy 
hearing. But this is hard stuff. It is a hard thing we are 
trying to do and the contracting in this area has certainly not 
been anything that any of us should be proud of.
    We are going to have a hearing, Mr. Johnson, in a few 
months on the contracting for counter narcotics in South 
America.
    We gave plenty of notice for documents. We have had 
difficulty getting documents out of the State Department. We 
were able to do this hearing without a lot of the documents we 
requested from the State Department.
    But it will be impossible for us to have the oversight 
hearing that we need to have on these contracts in South 
America without the cooperation of the State Department giving 
us the documents.
    So I would like to implore on the record today that you 
spend some time--I think this is under your silo at the State 
Department--if you would work to help us get the documents we 
need for that important hearing.
    I do not think we have ever had an oversight hearing on the 
expensive contracts that we issue on counter narcotics in South 
America and I would like it to be a full and complete hearing 
and it will not be without your cooperation.
    Mr. Johnson. Thank you, Madam Chairman. We have gathered 
the documents. They are going through the clearance process 
now. I will endeavor to push that as quickly as we can.
    Senator McCaskill. That would be terrific.
    I want to thank everyone for being here. I especially want 
to thank Senator Brown for his participation.
    This hearing is adjourned.
    [Whereupon, at 4:39 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7325.001

[GRAPHIC] [TIFF OMITTED] T7325.002

[GRAPHIC] [TIFF OMITTED] T7325.003

[GRAPHIC] [TIFF OMITTED] T7325.004

[GRAPHIC] [TIFF OMITTED] T7325.005

[GRAPHIC] [TIFF OMITTED] T7325.006

[GRAPHIC] [TIFF OMITTED] T7325.007

[GRAPHIC] [TIFF OMITTED] T7325.008

[GRAPHIC] [TIFF OMITTED] T7325.009

[GRAPHIC] [TIFF OMITTED] T7325.010

[GRAPHIC] [TIFF OMITTED] T7325.011

[GRAPHIC] [TIFF OMITTED] T7325.012

[GRAPHIC] [TIFF OMITTED] T7325.013

[GRAPHIC] [TIFF OMITTED] T7325.014

[GRAPHIC] [TIFF OMITTED] T7325.015

[GRAPHIC] [TIFF OMITTED] T7325.016

[GRAPHIC] [TIFF OMITTED] T7325.017

[GRAPHIC] [TIFF OMITTED] T7325.018

[GRAPHIC] [TIFF OMITTED] T7325.019

[GRAPHIC] [TIFF OMITTED] T7325.020

[GRAPHIC] [TIFF OMITTED] T7325.021

[GRAPHIC] [TIFF OMITTED] T7325.022

[GRAPHIC] [TIFF OMITTED] T7325.023

[GRAPHIC] [TIFF OMITTED] T7325.024

[GRAPHIC] [TIFF OMITTED] T7325.025

[GRAPHIC] [TIFF OMITTED] T7325.026

[GRAPHIC] [TIFF OMITTED] T7325.027

[GRAPHIC] [TIFF OMITTED] T7325.028

[GRAPHIC] [TIFF OMITTED] T7325.029

[GRAPHIC] [TIFF OMITTED] T7325.030

[GRAPHIC] [TIFF OMITTED] T7325.031

[GRAPHIC] [TIFF OMITTED] T7325.032

[GRAPHIC] [TIFF OMITTED] T7325.033

[GRAPHIC] [TIFF OMITTED] T7325.034

[GRAPHIC] [TIFF OMITTED] T7325.035

[GRAPHIC] [TIFF OMITTED] T7325.036

[GRAPHIC] [TIFF OMITTED] T7325.037

[GRAPHIC] [TIFF OMITTED] T7325.038

[GRAPHIC] [TIFF OMITTED] T7325.039

[GRAPHIC] [TIFF OMITTED] T7325.040

[GRAPHIC] [TIFF OMITTED] T7325.041

[GRAPHIC] [TIFF OMITTED] T7325.042

[GRAPHIC] [TIFF OMITTED] T7325.043

[GRAPHIC] [TIFF OMITTED] T7325.044

[GRAPHIC] [TIFF OMITTED] T7325.045

[GRAPHIC] [TIFF OMITTED] T7325.046

[GRAPHIC] [TIFF OMITTED] T7325.047

[GRAPHIC] [TIFF OMITTED] T7325.048

[GRAPHIC] [TIFF OMITTED] T7325.049

[GRAPHIC] [TIFF OMITTED] T7325.050

[GRAPHIC] [TIFF OMITTED] T7325.051

[GRAPHIC] [TIFF OMITTED] T7325.052

[GRAPHIC] [TIFF OMITTED] T7325.053

[GRAPHIC] [TIFF OMITTED] T7325.054

[GRAPHIC] [TIFF OMITTED] T7325.055

[GRAPHIC] [TIFF OMITTED] T7325.056

[GRAPHIC] [TIFF OMITTED] T7325.057

[GRAPHIC] [TIFF OMITTED] T7325.058

[GRAPHIC] [TIFF OMITTED] T7325.059

[GRAPHIC] [TIFF OMITTED] T7325.060

[GRAPHIC] [TIFF OMITTED] T7325.061

[GRAPHIC] [TIFF OMITTED] T7325.062

[GRAPHIC] [TIFF OMITTED] T7325.063

[GRAPHIC] [TIFF OMITTED] T7325.064

[GRAPHIC] [TIFF OMITTED] T7325.065

[GRAPHIC] [TIFF OMITTED] T7325.066

[GRAPHIC] [TIFF OMITTED] T7325.067

[GRAPHIC] [TIFF OMITTED] T7325.068

[GRAPHIC] [TIFF OMITTED] T7325.069

[GRAPHIC] [TIFF OMITTED] T7325.070

[GRAPHIC] [TIFF OMITTED] T7325.071

[GRAPHIC] [TIFF OMITTED] T7325.072

[GRAPHIC] [TIFF OMITTED] T7325.073

[GRAPHIC] [TIFF OMITTED] T7325.074

[GRAPHIC] [TIFF OMITTED] T7325.075

[GRAPHIC] [TIFF OMITTED] T7325.076

[GRAPHIC] [TIFF OMITTED] T7325.077

[GRAPHIC] [TIFF OMITTED] T7325.078

[GRAPHIC] [TIFF OMITTED] T7325.079

[GRAPHIC] [TIFF OMITTED] T7325.080

[GRAPHIC] [TIFF OMITTED] T7325.081

[GRAPHIC] [TIFF OMITTED] T7325.082

[GRAPHIC] [TIFF OMITTED] T7325.083

[GRAPHIC] [TIFF OMITTED] T7325.084

[GRAPHIC] [TIFF OMITTED] T7325.085

[GRAPHIC] [TIFF OMITTED] T7325.086

[GRAPHIC] [TIFF OMITTED] T7325.087

[GRAPHIC] [TIFF OMITTED] T7325.088

[GRAPHIC] [TIFF OMITTED] T7325.089

[GRAPHIC] [TIFF OMITTED] T7325.090

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
